0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
BRAD MARTIN, in his individual capacity and as an

employee of the Arizona Department of Public
Safety; STATE OF ARIZONA,

Petitioners,
V.

CARLOS CASTRO,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Petition for Writ of Certiorari contains
7,976 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 7, 2021.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

, 8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

